CASE 0:08-cr-00128-PAM-JJG Doc.143 Filed 12/23/20 Page 1 of 5

®utteb H>tate£ Court of Sppoate
jjfor tf)t Cigfjtl) Circuit

No. 19-3528

United States of America
Plaintiff - Appellee
v.
Edward Lee Smith
Defendant - Appellant

Appeal from United States District Court
for the District of Minnesota

Submitted: September 21, 2020
Filed: December 23, 2020

Before LOKEN, SHEPHERD, and ERICKSON, Circuit Judges.

SHEPHERD, Circuit Judge.
In November 2019, Edward Lee Smith was sentenced to 180 months
imprisonment for possession of controlled substances with the intent to distribute in
violation of 21 U.S.C. § 841(a)(1), (b)(1)(B). Atthe same time, Smith was sentenced
to a consecutive term of 30 months imprisonment for violating the terms of a
previously imposed term of supervised release. On appeal, Smith argues that the
'v.

-la-

Appellate Case: 19-3528

Page: 1

Date Filed: 12/23/2020 Entry ID: 4987862

CASE 0:08-cr-00128-PAM-JJG Doc.143 Filed 12/23/20 Page 2 of 5

district court1 procedurally erred by finding that, per the United States Sentencing
Guidelines, a consecutive term was mandatory. We have jurisdiction pursuant to 28
U.S.C. § 1291, and we affirm.
I.
In 2008, a jury convicted Smith of possession with the intent to distribute
cocaine base and manufacturing cocaine base. He was sentenced to 120 months
imprisonment and eight years of supervised release. In February 2019—while Smith
was still on supervised release—the United States Probation Office filed a Petition
for Violation of Supervised Release. In the Petition, the Probation Office alleged
that Smith had violated the terms and conditions of his supervised release by, among
other things, possessing controlled substances. In May 2019, based on the same
conduct, Smith was charged with one count of possession with intent to distribute
controlled substances. In July 2019, pursuant to a plea agreement, Smith pled guilty
to this count. As a part of Smith’s plea agreement, the government agreed to raise
no objection to Smith serving concurrent (rather than consecutive) sentences for his
possession charge and for his then-pending supervised release violation.
At Smith’s sentencing hearing, the district court reminded Smith that his
guilty plea to the possession charge implicated a violation of his supervised release
terms. The district court said, “And, of course ... the plea to this involves a violation
of your sentencing supervised release from your previous case, because there’s a
new offense and you had obviously a requirement to have no new offenses and not
be involved with narcotics.” R. Doc. 83, at 5.2 Smith acknowledged this and waived
Uhe Honorable Ann D. Montgomery, United States District Judge for the
District of Minnesota.
2The revocation of supervised release is Case No. 0:08-cr-00128 (PAM), and
the possession with the intent to distribute controlled substances is case number
0:19-CR-00144 (ADM/HB), both from the District of Minnesota. For the purposes
of this opinion, all citations to the record originate from Case No. 0:19-cr-00144
(ADM/HB).
-2a-2Appellate Case: 19-3528

Page: 2

Date Filed: 12/23/2020 Entry ID: 4987862

CASE 0:08-cr-00128-PAM-JJG Doc. 143 Filed 12/23/20 Page 3 of 5

any hearing on the revocation petition. The district court stated, “[T]he record will
reflect that the hearing has been waived, and we’ll treat that case as a part of this
case under the circumstances and do both sentencings at once.” R. Doc. 83, at 5.
The district court then discussed the Sentencing Guidelines and the
Guidelines’ impact on Smith’s case before acknowledging that the parties’ plea
agreement “simplifie[d]” much of the sentencing process. R. Doc. 83, at 2-4. The
district court calculated the Guidelines range for Smith’s new offense as 168 to 210
months imprisonment and noted the parties’ plea agreement (and the agreed-to range
of 144 to 216-months imprisonment). The court stated, “It seems to me that there’s
sort of an assumption that [Smith’s sentences] would be concurrent, but looking at
the law it looks to me pretty clear that I probably should be imposing consecutive
time on that.” R. Doc. 83, at 13. Later in that hearing, the court stated:
I am going to adjust things a little differently than counsel ha[s] done
and impose a consecutive sentence, because I think it’s required as I
read the [Guidelines or it makes sense to me that it does. So there
should be some recognition of committing another federal felony
offense, while you are already on federal probation, should be
warranted of consecutive time.
R. Doc. 83, at 21. Ultimately, the district court sentenced Smith to 180 months
imprisonment on the new conviction and 30 months imprisonment for his supervised
release violation to be served consecutively, for a total of 210 months. The court
also imposed a supervised release term of eight years.
II.
We first consider whether the district court committed a procedural error.
United States v. Green, 946 F.3d 433.440 (8th Cir. 2019). “In reviewing a sentence
for significant procedural error, we review a district court’s factual findings for clear
error and its interpretation and application of the [Guidelines de novo.” United
States v. Marshall, 891 F.3d 716, 719 (8th Cir. 2018) (quoting United States v.
-3a-3Appellate Case: 19-3528

Page: 3

Date Filed: 12/23/2020 Entry ID: 4987862

CASE 0:08-cr-00128-PAM-JJG Doc. 143 Filed 12/23/20 Page 4 of 5

Kirlin, 859 F.3d 539, 543 (8th Cir. 2017)). ‘“Procedural error’ includes ‘failing to
calculate (or improperly calculating) the Guidelines range, treating the Guidelines
as mandatory, failing to consider the § 3553(a) factors, selecting a sentence based
on clearly erroneous facts, or failing to adequately explain the chosen sentence—
including an explanation for any deviation from the Guidelines range.’” United
States v. Feemster, 572 F.3d 455, 461 (8th Cir. 2009) (emphasis added) (citation
omitted). “[If] we find that significant procedural error occurred, we must reverse
unless the error was harmless.” United States v. Moody, 930 F.3d 991, 993 (8th Cir.
2019).
Smith contends that the district court committed significant procedural error
when it treated the Sentencing Guidelines as mandatory, requiring that it impose
consecutive (rather than concurrent) sentences. We disagree. Smith is correct that
to treat the Guidelines as mandatory is to commit significant procedural error. IcL
However, the record reflects that the district court treated the Guidelines as merely
advisory.
First, the government agreed to concurrent sentences in the plea agreement.
At Smith’s plea hearing, the court recognized this agreement by stating, “[T]here is
going to be no objection by the government to running any time imposed for your
pending supervised release case concurrently or at the same time as the time imposed
in this case.” R. Doc. 81, at 17. Next, at Smith’s sentencing hearing, the government
informed the court that it had no objection to concurrent sentences. Defense counsel
highlighted the Guideline’s advisory nature by stating, “Your Honor, the
[Guidelines do call for a consecutive term as to the supervised release violation;
however, those, the [Guidelines ... are advisory.” R. Doc. 83, at 14. At no time
did the court dispute the parties’ understanding that the Guidelines are advisory.
Smith directs our attention to the district court’s colloquy with counsel at his
sentencing hearing in which the court stated: “I am going to adjust things a little
differently than counsel ha[s] done and impose a consecutive sentence, because I
think it’s required as I read the [Guidelines or it makes sense to me that it does.”
-4a-4Appellate Case: 19-3528

Page: 4

Date Filed: 12/23/2020 Entry ID: 4987862

CASE 0:08-cr-00128-PAM-JJG Doc. 143 Filed 12/23/20 Page 5 of 5

R. Doc. 83, at 21. Smith emphasizes the phrase “because I think it’s required” as
evidence that the district court applied the Guidelines as mandatory. The Guidelines,
at § 7B 1.3(f), state that consecutive sentences are required in cases like Smith’s, and
perhaps the district court was simply tracking that language. Nevertheless, it would
be a significant procedural error to read the Guidelines—even Guidelines containing
compulsory language like § 7B 1.3(f)—as mandatory. Green, 946 F.3d at 440.
But we do not look at this five-word phrase in isolation. Rather, we consider
it in the context of the entirety of the sentencing proceeding. See, e.g„ Kirlin, 859
F.3d at 545 (finding no error where the “sentencing record taken as a whole”
demonstrates that the district court engaged in a proper § 3553(a) analysis (citation
omitted)). And when viewing that record in its entirety, it is clear the district court
did not treat the Guidelines as mandatory and properly exercised its discretion in
ordering consecutive sentences. The court explained “it makes sense” that “there
should be some recognition” Smith committed a federal felony offense while on
federal probation. R. Doc. 83, at 21. In an effort to achieve this objective, the court
opted to “adjust things a little differently” from what the plea agreement directed.
R. Doc. 83, at 21.
We acknowledge that the district court’s statements could have been more
precise. However, after considering the record in its entirety, it is evident that the
district court understood the Sentencing Guidelines were advisory rather than
mandatory and exercised its discretion in ordering consecutive sentences. Because
we find no error, we do not reach the issue of harmlessness. Moody, 930 F.3d at
993.
III.
For the above-stated reasons, we affirm Smith’s consecutive sentences.

-5a-

-5Appellate Case: 19-3528

Page: 5

Date Filed: 12/23/2020 Entry ID: 4987862

IT

CASE 0:08-cr-00128-PAM-JJG Document 133 Filed 11/14/19 Page 1 of 2

i

V .
[,

AO 245D (Rev. ] 1/16) Sheet 1 - Judgment in a Criminal Case for Revocations

p

United States District Court

t-

District of Minnesota

t

UNITED STATES OF AMERICA

JUDGMENT IN. A CRIMINAL CASE
(For Revocation of Supervised Release)

v.

Case Number: 0:08-CR-00128-PAM(1)
USM Number: 08506-041
Frederick J. Goetz

EDWARD LEE SMITH

Defendant’s Attorney

I.

THE DEFENDANT:
(3

admitted guilt;to violation of condition(s) of the term of supervision.

□ ' was found in violation of condition(s) after denial of guilt.
The defendant is adjudicated guilty of these violations:
Violation
Standard and
Mandatory
Conditions

Nature of Violation
In February of 2019, the Defendant was arrested and charged by the. Minneapolis Police Department
for various drug charges which resulted in a Federal Indictment in case 19-cr-l 44 ADM. In relation
to this conduct, the MPD alleges the Defendant is a high-ranking member of the Vice Lords street
gang and is known to associate with other gang members. The Defendant also did not notify the
probation officer of any change in residence.

The defendant is sentenced as provided in pages 2 through 3 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.
□

The defendant has not violated condition(s)

and is discharged as to such violation(s) condition.

It is ordered that the defendant must notify the United-States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United'States attorney of material changes in economic
circumstances.

Last Four Digits of Defendant’s Soc. Sec. 7552

November 13, 2019
Date of Imposition of Judgment

Defendant’s Year of Birth: 1968

City and State of Defendant’s Residence:
Apple Valley, Minnesota

s/Ann D. Montgomery'
Signature of Judge

ANN D. MONTGOMERY
UNITED STATES DISTRICT JUDGE
Name and Title of Judge
November 13, 2019
Date

-6 aA1

CASE 0:08-cr-00128-PAM-JJG Document 133 Filed 11/14/19 Page 2 of 2
AO 24:>D (Rev. 11/16) Sheet 2 - Imprisonment

DEFENDANT:
. CASE NUMBER:

.

EDWARD LEE SMITH
0:08-CR-00128-PAM(1)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
30 months, to run consecutively with the sentence imposed in case 19-cr-144 ADM/HB. No term of supervision to follow.

The court makes the following recommendations to the Bureau of. Prisons: That the defendant be incarcerated at an
institution in Minnesota. That the defendant participate in the .Residential Drug Abuse Program.

ET The defendant is remanded to the custody of the United States Marshal.

□

The defendant shall surrender to the United States Marshal for this district:

□ at

□

a.ni.

□

p.in.

on

as notified by the United States Marshal.
□

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
dl

before on

□

as notified by the United States Marshal.

□

as notified by the Probation or Pretrial Services Office.

RETURN
1 have executed this judgment as follows:

Defendant delivered on

at

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

2
a-.

-7a-

.
A2

